OIG Investigative Reports, Press Release South Bend Indiana,  March 29, 2011 -  International Businessman James Simon Sentenced
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
United States Attorney David Capp
Northern District of Indiana
M01-204 S. Main Street
South Bend, IN 46601
Hammond
FOR IMMEDIATE RELEASE:
March 29, 2011
www.usdoj.gov/usao/inn/
South Bend
Fort Wayne
Contact: Mary L. Hatton
Phone: (219) 937-5500
Fax: (219) 852-2770
INTERNATIONAL BUSINESSMAN JAMES SIMON SENTENCED
South Bend, IN—The United States Attorney's Office announced:James A, Simon, 60, of Huntertown, Indiana, was sentenced by Judge Robert Miller, Jr. to 72 months of imprisonment and 3 years of supervised release after being found guilty at trial of four counts of filing false federal income tax returns, three counts of failure to file reports of foreign bank and financial accounts, six counts of mail fraud involving private financial aid, and four counts of fraud involving federal financial aid.
From 2003 to 2006, Simon received money from five business entities with which he was affiliated, located in Gibralter, Cyprus, Colorado, and Indiana. He did not report the funds received from these entities on his federal tax returns. The Court found that Simon failed to report a total of over $3.1 million to the IRS.
Simon also did not disclose that he had an interest in foreign bank accounts held in Gibraltar, Germany and Cyprus, and did not file required “FBAR” reports with the Treasury Department regarding the foreign accounts. Further, Simon provided false information regarding his family’s income and expenses on applications for private financial aid to two different schools and on applications for federal financial aid to one college.
Simon is required to pay restitution to the Internal Revenue Service in the amount of $886,901. He will also pay restitution of $48,070 to the Department of Education, $17,000 to Canterbury School, and $101,600 to Culver Academy.
These charges were filed as a result of an investigation by the Internal Revenue Service Criminal Investigations. This case has been assigned to and will be prosecuted by Assistant United States Attorney
Jesse M. Barrett.
Top
Printable view
Last Modified: 05/10/2011
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov